x             Office of Audits
              Office of Inspector General
              U.S. General Services Administration




               Audit of Environmental Liability
               Issues at the Former Hardesty
               Federal Complex
               Kansas City, Missouri
               Report Number A130120/P/6/R14003
               May 21, 2014




    A130120/P/6/R14003
               Office of Audits
               Office of Inspector General
               U.S. General Services Administration


 DATE:            May 21, 2014
 TO:              Jason Klumb
                  Regional Administrator (6A)

                  Cy Houston
                  Acting Regional Commissioner, Public Buildings Service (6P)

 FROM:            Erin Priddy
                  Audit Manager, Heartland Region Audit Office (JA-6)
 SUBJECT:         Audit of Environmental Liability Issues at the Former Hardesty
                  Federal Complex, Kansas City, Missouri
                  Report Number A130120/P/6/R14003

This report presents the results of our audit of environmental liability issues at the
former Hardesty Federal Complex (Hardesty Complex) in Kansas City, Missouri.

Our objective was to determine if GSA complied with applicable laws, regulations, and
guidance in managing its environmental liability at the Hardesty Complex.

GSA is currently in compliance with the requirements of the Comprehensive
Environmental Response, Compensation, and Liability Act. Recent testing has shown
there is no immediate human health risk associated with contaminated groundwater on
and near the site. However, GSA’s historical management of the complex and its
attempts to sell the property appear to have had a negative impact on the timeliness of
clean-up.

See Appendix A – Purpose, Scope, and Methodology for additional details.

If you have any questions regarding this report, please contact me or a member of the
audit team at the following:

       Erin Priddy Audit Manager     Erin.Priddy@gsaig.gov (816) 926-8610
       Erin Kraft  Auditor-In-Charge Erin.Kraft@gsaig.gov  (816) 926-8625

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.



A130120/P/6/R14003                       1
Background

Hardesty Federal Complex History

The Hardesty Federal Complex (Hardesty Complex) was originally purchased by the
U.S. Army in 1940. At the time, the property consisted of four main structures (refer to
Appendix C for a site map of the complex). 1 The complex served as the Kansas City
Quartermaster Depot (Depot) during World War II. The purpose of the Depot was to
purchase, store, and issue supplies for military posts in the western portion of the
country. The Army constructed six additional buildings on the property between 1941
and 1942. 2 Additional auxiliary buildings (#4, 5, 8, 12, 14, 15, 16, 17, 18, 19, and 20)
were also constructed on the site. 3

At the end of World War II in 1945, the Depot began demobilization work. Although the
Depot had drastically reduced its function and work force, it retained a presence at the
complex through 1953. The complex was then used primarily for records storage until
the Army transferred ownership to GSA in 1960. In 1980, GSA sold two of the buildings
(#1 and 2) to Megaspace, Ltd. Tenants gradually vacated the complex, leaving it
unoccupied in 2002. In 2011, GSA sold the remaining complex to the Hardesty
Renaissance Economic Development Corporation. GSA used a Comprehensive
Environmental Response, Compensation, and Liability Act (CERCLA) 120 early transfer
process where GSA maintains responsibility for addressing environmental-related
issues resulting from past operations. 4

Environmental Contamination

During the time the Hardesty Complex served as the Depot, its mission included
receiving and storing protective and impermeable clothing, inks, lithographic chemicals,
petroleum products, and petroleum handling equipment; laundering and dry-cleaning
operations; impregnating clothing to ward off effects of gas attacks; and procuring
graphic arts operating supplies and chemicals. In December 2000, the Hardesty
Complex was added to the Environmental Protection Agency (EPA) Federal Agency
Hazardous Waste Compliance Docket (Docket) based on a referral from the Missouri
Department of Natural Resources (MDNR). EPA requires any agency added to the
Docket to submit a Preliminary Assessment and Site Inspection (PA/SI) for evaluation
for possible listing on the National Priorities List. 5 GSA contracted with a consulting
engineer firm to perform the PA/SI. The PA/SI was completed in 2002 and its findings
included:



1
  Main building (#1), annex building (#2), power plant building (#3), and coal unloading shed (#3a), were
built between 1919 and 1924.
2
  Clothing renovation plant (#6), utilities building (#7), special warehouse buildings (#9-11), and electrical
sub-station building (#13).
3
  These buildings were demolished in the 1970s and 1980s.
4
  42 U.S.C. 9620(h)(3)(C).
5
  EPA determined the Hardesty complex to be “low priority for further assessment” in 2006 and that the
“site does not qualify for the National Priorities List based on existing information” in 2010.

A130120/P/6/R14003                               2
    ·   Lead was found in samples from the trap, floors, walls, ceiling, and sand in the
        bullet stop of the firing range located in the basement of Building #9 and was
        classified as hazardous.

    ·   Lead was found in ash samples collected from the smokestack clean-out room
        located in the basement of Building #3, but not above the EPA regulatory level.
        The ash was not considered a hazardous waste.

    ·   Volatile Organic Compounds (VOCs), such as PCA, TCA, PCE, and TCE, 6 were
        found in groundwater samples. 7 The greatest concentrations were in the grass-
        covered area between Buildings #6 and 9 and toward the northeast, east, and
        southeast of the grass-covered area of the complex. At the time, the report
        speculated the contamination extended beyond the boundaries of the Hardesty
        Complex to the north and east.

Results

GSA is in compliance with CERCLA requirements. While GSA is currently exercising
responsible management of the CERCLA process at the Hardesty Complex, historical
management of the complex appears to have had a negative impact on the timeliness
of the clean-up. Also, recent testing shows no immediate human health risk.

GSA is in compliance with CERCLA requirements.

CERCLA, commonly known as “Superfund,” is an act to provide for liability,
compensation, clean-up, and emergency response for hazardous substances released
into the environment and the clean-up of inactive hazardous waste disposal sites. The
Superfund is a long-term, complex clean-up process. It involves steps to assess sites,
place properties on the National Priorities List, and establish and implement appropriate
clean-up plans.

We found GSA to be in compliance with CERCLA requirements. 8 GSA has conducted
community involvement actions, sold the property with mandatory deed assurances,
worked in conjunction with oversight from MDNR, and proposed a schedule of
remediation action. Currently, GSA anticipates completion of a Remedial Investigation
(RI) in October 2014, and a Feasibility Study (FS) in April 2015. The RI/FS will
determine the extent of the contamination at the site and an evaluation of the cost and
performance of various methods that could be used to clean-up the site. See Appendix
D for GSA’s current CERCLA timeline.

While GSA is currently exercising responsible administration of the Superfund process,
its historical management of the Hardesty Complex appears to have had a negative

6
  1, 1, 2, 2-tetrachloroethane (PCA); 1, 1, 2-trichloroethane (TCA); tetrachloroethene (PCE); and
trichloroethene (TCE).
7
   The VOCs found were believed to be from historical clothing chemical pretreatment activities that
occurred during World War II.
8
  42 U.S.C. 9620.

A130120/P/6/R14003                           3
impact on the timeliness of the clean-up. GSA is still in the early stages of the
Superfund process even though the PA/SI was completed over 11 years ago.

                                Figure 1 – The Superfund Process 9




MDNR officials indicated that the clean-up process under CERCLA can be lengthy.
However, there have been instances where GSA failed to coordinate its testing and/or
remediation work with the proper oversight authority, which jeopardized its agreement
with MDNR and excluded GSA from receiving funding from the Department of Defense.
There was also a span of time from 2006 to 2010, when GSA took little or no action.
While GSA was engaged in attempts to sell the complex during this time, we did not
identify a valid reason for the lack of progress during this period.

Recent testing confirms no human health risk.

GSA has conducted numerous tests of the soil, groundwater, and structures at the
Hardesty Complex. Based on the findings from the PA/SI, GSA has primarily focused
on testing and monitoring VOC contamination in groundwater. 10 In 2003, GSA was
notified that groundwater contamination from the complex had migrated off site to the
north and east of the complex. However, testing indicates that this groundwater
contamination has not affected drinking or surface water in the area. Furthermore, risk
assessments performed in 2004 and 2013 concluded that the groundwater
contamination does not pose an immediate human health risk.




9
 See full explanation of the Superfund process in Appendix E.
10
  Among the health effects of VOCs are eye, nose, and throat irritation; headaches, loss of coordination,
nausea; damage to the liver, kidney, and central nervous system; and cancer.

A130120/P/6/R14003                             4
EPA has recently revised its vapor intrusion standards. Using these new standards,
GSA’s consultant reported that some of the samples collected in early 2013 showed
elevated levels of TCE. As a result, GSA ordered expanded testing in residential areas
to the north and east of the property to determine whether the contamination levels
could cause risk to people inhabiting surrounding buildings. The testing so far
continues to indicate that there is no immediate human health risk. MDNR validated
this conclusion in 2013 by having the Missouri Department of Health and Senior
Services perform its own risk assessment.

Other Observations

GSA has generally excluded Buildings #1 and 2 from its environmental testing. GSA’s
responsibility for environmental testing and any necessary remedial action associated
with contamination from historical activities on that portion of the site are not clear. We
suggest GSA seek a legal opinion as to its environmental liability.

The Hardesty Complex has been evaluated twice by the U.S. Army Corps of Engineers
(Army Corps) for program eligibility and possible clean-up funding under the Defense
Environmental Restoration Program for formerly used defense sites (FUDS). 11 Both
reports determined that the complex was FUDS-eligible but recommended no further
action be taken at the site. The most recent report stated that the determination was
made because, “the response actions were initiated or completed with regard to DOD
contamination without coordination with the FUDS program.” We suggest that GSA
follow up with the Army Corps for remediation funding under the FUDS program.

Conclusion

GSA is in compliance with CERCLA requirements. While GSA is currently exercising
responsible management of the Superfund process at the Hardesty Complex, historical
management of the complex appears to have had a negative impact on the timeliness
of the clean-up. Also, recent testing has continued to show there is no immediate
human health risk associated with contaminated groundwater on and near the site.

Management Comments

See management comments in Appendix B.




11
   The evaluations include the Defense Environmental Restoration Program Inventory Project Report
issued in 1987 and the Reexamination Request Assessment issued in 2008.

A130120/P/6/R14003                          5
Appendix A – Purpose, Scope, and Methodology
Purpose

We initiated the audit at the request of the Heartland Regional Administrator (RA). GSA
sold the former Hardesty Complex in 2011, but retained the environmental liability
associated with historical activities at the site. By memorandum dated June 20, 2013,
the RA advised that it had recently come to his attention that environmental
contamination in groundwater plumes had migrated from the Hardesty Complex to
adjacent commercial and residential areas. The RA wanted to ensure that GSA was
properly handling the issues, including communication with individuals in the
surrounding community. The RA also asked that we audit the policies and practices
that have led to this point to ensure that GSA is operating in a way that is consistent
with its responsibilities.

Scope

We focused our audit primarily on the time period 2001 to present, but reviewed earlier
historical documents for background information and context.

Methodology

To accomplish our objective, we:

   ·   Reviewed documents related to environmental contamination at the Hardesty
       Complex;
   ·   Reviewed applicable laws, regulations and EPA guidance;
   ·   Held discussions with Region 6 PBS officials, representatives from GSA’s
       consultant, and MDNR officials; and
   ·   Visually inspected the property and adjacent areas.

We conducted the audit between August 2013 and January 2014 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Internal Controls

The examination of internal controls was limited to those necessary to achieve the
specific objective and scope of the audit. Our results are identified in the body of this
report.




A130120/P/6/R14003                     A-1
Appendix B – Management Comments




A130120/P/6/R14003    B-1
Appendix C – Hardesty Federal Complex Site Plan




A130120/P/6/R14003       C-1
Appendix D – Hardesty Complex CERCLA Milestones
Preliminary Assessment/Site Inspection: Complete 2002

Remedial Investigation: October 2014

Feasibility Study: April 2015

Proposed Plan: June 2015

Record-of-Decision: October 2015

Remedial Design: April 2016

Remedial Action: October 2016

Interim Remedial Action Report: April 2017

Operating Properly and Successfully: October 2017

Long-term Operations/Monitoring: quarterly to annual in accordance with approved
plans

Remedial Action Completion Report: October 2025




A130120/P/6/R14003                     D-1
Appendix E – EPA Superfund Process

               Preliminary Assessment/Site Inspection
               Investigations of site conditions. If the release of hazardous substances
PA/SI
               requires immediate or short-term response actions, these are
               addressed under the Emergency Response program of Superfund.

               National Priorities List (NPL) Site Listing Process
NPL Listing
               A list of the most serious sites identified for possible long-term clean-up.

               Remedial Investigation/Feasibility Study
               Determines the nature and extent of contamination. Assesses the
RI/FS
               treatability of site contamination and evaluates the potential
               performance and cost of treatment technologies.

               Records of Decision
               Explains which clean-up alternatives will be used at NPL sites. When
ROD
               remedies exceed 25 million, they are reviewed by the National Remedy
               Review Board.

               Remedial Design/Remedial Action
               Preparation and implementation of plans and specifications for applying
RD/RA          site remedies. The bulk of the clean-up usually occurs during this
               phase. All new fund-financed remedies are reviewed by the National
               Priorities Panel.

               Construction Completion
Construction   Identifies completion of physical clean-up construction, although this
Completion     does not necessarily indicate whether final clean-up levels have been
               achieved.

               Post Construction Completion
Post           Ensures that Superfund response actions provide for the long-term
Construction   protection of human health and the environment. Included here are
Completion     Long-Term Response Actions, Operation and Maintenance, Institutional
               Controls, Five-Year Reviews, Remedy Optimization.

               National Priorities List Deletion
NPL Delete     Removes a site from the NPL once all response actions are complete
               and all clean-up goals have been achieved.

               Site Reuse/Redevelopment
Reuse          Information on how the Superfund program is working with communities
               and other partners to return hazardous waste sites to safe and
               productive use without adversely affecting the remedy.




A130120/P/6/R14003                    E-1
Appendix F – Report Distribution
Regional Administrator (6A)

Acting Regional Commissioner, Public Buildings Service (6P)

Commissioner, Public Buildings Service (P)

Deputy Commissioner, Public Buildings Service (PD)

Chief of Staff, Public Buildings Service (PB)

Regional Counsel (LD6)

Director, Facilities Management Division (6PM)

Director, Building Operations Branch (6PMX)

Branch Chief, GAO/IG Audit Response Branch (H1C)

Regional Audit Liaison, Public Buildings Service (BCPA)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A130120/P/6/R14003                      F-1
